<html>
<title> - [H.A.S.C. No. 111-131]RECENT STUDIES ON THE EFFECTS OF DEPLOYMENT ON MILITARY CHILDREN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-131]

 
    RECENT STUDIES ON THE EFFECTS OF DEPLOYMENT ON MILITARY CHILDREN

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 9, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-400                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
               Michael Higgins, Professional Staff Member
               Jeanette James, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, March 9, 2010, Recent Studies on the Effects of 
  Deployment on Military Children................................     1

Appendix:

Tuesday, March 9, 2010...........................................    19
                              ----------                              

                         TUESDAY, MARCH 9, 2010
    RECENT STUDIES ON THE EFFECTS OF DEPLOYMENT ON MILITARY CHILDREN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Chandra, Dr. Anita, Behavioral Scientist, RAND Corporation.......     3
Wong, Dr. Leonard, Research Professor, Strategic Studies 
  Institute, U.S. Army War College...............................     4

                                APPENDIX

Prepared Statements:

    Chandra, Dr. Anita...........................................    26
    Davis, Hon. Susan A..........................................    23
    Wilson, Hon. Joe.............................................    25
    Wong, Dr. Leonard............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

    RECENT STUDIES ON THE EFFECTS OF DEPLOYMENT ON MILITARY CHILDREN

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                            Washington, DC, Tuesday, March 9, 2010.
    The subcommittee met, pursuant to call, at 5:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. The hearing will come to order.
    Good evening, everybody--or good late afternoon. Thank you 
so much for joining us today. We appreciate it.
    Given the limited legislative calendar available to the 
committee, we are embarking on a different hearing structure. 
This hearing will focus on a specific topic, the effects of 
deployment on military children, and will only last 
approximately one hour prior to our votes at 6:30. As such, I 
will keep my remarks very short, and we will have time for a 
more robust discussion on this issue during the question and 
answer section. I want to thank our witnesses again for coming.
    While there is a lot of anecdotal information that we all 
think about as we think about our military families and our 
young people, until recently there have been really very 
limited analysis of the impact deployments are having on our 
military children. Today, we will focus on two recent studies 
that looked at military children and the impact multiple 
deployments have had on them and their families. So let me 
welcome our witnesses, Dr. Anita Chandra, a behavioral 
scientist with the RAND Corporation, and Dr. Leonard Wong, 
research professor at Strategic Studies Institute with the U.S. 
Army War College.
    While their individual research has documented several 
findings, it is important to note that both studies have many 
similarities. For example, both studies found that children 
with a strong non-deployed parent and/or family support 
structure was very important to ensuring lower levels of stress 
and a better ability to cope with the deployment. These 
findings, of course, are an important first step toward 
understanding the needs of our military children and helping to 
provide them and their families the programs and support that 
they need to survive, be resilient, and succeed during these 
difficult times.
    Dr. Chandra and Dr. Wong--please, Dr. Chandra, if you will 
begin first. All written statements will be included in the 
record. We would ask you to keep your remarks to three or four 
minutes. We really want to hear from you, so we want to be sure 
you have an opportunity to say what you would like; and, of 
course, we will follow up with questions as well.
    Mr. Wilson, do you have any comments?
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 23.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis; and thank you for 
holding the hearing today.
    Today's hearing continues our commitment to military 
families who share the challenge of ongoing wars alongside 
their military service member. I believe our children are the 
future of this great nation. We must take care that, in our 
efforts to mitigate the effects of combat on service members, 
we are mindful that families experience the challenges of 
deployment together but each in their own way.
    I am encouraged by the studies we will hear about today 
which seem to suggest our military children are more resilient 
than we could expect. With that, it is also clear that the 
well-being of our children is affected by the stability of 
their family and the emotional strength of the non-deployed 
parent, among other factors.
    Our main concern, that although the Department of Defense 
[DOD] and the military services have implemented numerous 
programs to address the mental health needs of our service 
members and their families, these programs remain under 
resourced and pose challenges to families who need help. I 
encourage the Department and services to look closely at the 
results of these studies to determine where these programs may 
fall short in providing the necessary support to military 
family programs.
    I also recognize this research is only the first step in 
understanding how the war on terrorism is affecting our 
military children. I would like to hear from our witnesses 
today their recommendations for future study. I am also 
interested to hear if they found gaps in programs available to 
assist military families and if the effects of deployments on 
children would be mitigated if these gaps were addressed.
    Finally, I would like to know how else we can help these 
incredible children who so often have to be strong beyond their 
years, while their military parent is away. We owe it to this 
nation to ensure this generation of military children is able 
to transition to adulthood with the skills and emotional 
strength to successfully lead us in the future.
    I welcome our witnesses and thank them for participating in 
the hearing today. I look forward to your testimony.
    Mrs. Davis. Thank you, Mr. Wilson.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]
    Mrs. Davis. Dr. Chandra, would you please begin.

  STATEMENT OF DR. ANITA CHANDRA, BEHAVIORAL SCIENTIST, RAND 
                          CORPORATION

    Dr. Chandra. Thank you.
    Chairwoman Davis, Representative Wilson and distinguished 
members of the subcommittee, thank you for inviting me to 
testify today. I will discuss the findings from our study, 
``Children on the Homefront: The Experience of Children from 
Military Families'' related to the well-being of military 
children and how they are coping specifically with parental 
deployment. These findings were also published in the Journal 
of Pediatrics in December of 2009.
    As you know, multiple and extended deployments and the high 
operational pace of the current conflicts are unparalleled for 
the U.S. military's all-voluntary force. As a result, many 
military children are experiencing more months or years of 
parental deployment; and it is increasingly important to 
understand how parental deployment affects child well-being. 
Despite the contributions of previous studies, significant 
knowledge gaps remain, especially for older children.
    Our study focused on the well-being of youth ages 11 to 17 
and their non-deployed parent or caregiver from over 1,500 
families. Families in our study were selected from the 2008 
applicant pool to Operation Purple, a summer camp program 
sponsored by the National Military Family Association. Our 
sample was proportionate to deployed force composition across 
Army, Navy, Marines, and Air Force active, guard, and reserve 
service members. We conducted two interviews, one with the non-
deployed caregiver, usually the mother in this case, and one 
with the child. I will highlight our findings related to 
military youth well-being as well as challenges specifically 
associated with deployment and reintegration.
    First, to military youth well-being. A goal was to show how 
children from military families function with respect to 
academics, peer, and family relations, general emotional 
difficulties, and overall problem behaviors. Compared to 
children in the U.S. sample, the average emotional difficulty 
for our study sample is consistently higher at each age. We 
found that 30 percent of our sample had elevated levels of 
anxiety symptoms indicating a possible anxiety disorder. This 
is twice as high as the proportion of other samples of youth. 
We did not observe any major differences in child well-being by 
component, deployment experience, or service.
    Children and caregivers were also asked to report on 
difficulties that children experienced as a result of parental 
deployment and return. Caregivers reported that older children 
had a greater number of difficulties than younger children 
during deployment. Girls reported more challenges during 
deployment and reintegration than did boys. We also found that 
caregivers with poor mental health themselves reported more 
child difficulties during deployment.
    Total months of parental deployment in the past three years 
were significantly linked to a greater number of child 
difficulties during that deployment as well as upon 
reintegration. More specifically, as the total months of 
parental deployment increased, so did the number of 
difficulties the child reported. In some, our analysis 
uncovered important associations between a family's military 
background, deployment experience, and key child outcomes.
    Given that child difficulties were greater for families 
experiencing longer periods of parental absence in the last 
three years, these families may benefit from targeted support 
to deal with these stressors at later points in the deployment 
and not simply during initial stages. Further, families in 
which the non-deployed caregivers are struggling with their own 
mental health may need more support for both caregiver and 
child.
    At the same time, however, we know that dozens of programs 
are already being implemented across the defense and civilian 
sectors to support military families. It is important to ask 
questions about whether, based on research, these programs are 
meeting the needs of the families; and, if not, should they be 
continued or how might they be improved.
    Thank you again for the opportunity to testify today and to 
share the results of our research.
    [The prepared statement of Dr. Chandra can be found in the 
Appendix on page 26.]
    Mrs. Davis. Thank you.
    Dr. Wong.

 STATEMENT OF DR. LEONARD WONG, RESEARCH PROFESSOR, STRATEGIC 
            STUDIES INSTITUTE, U.S. ARMY WAR COLLEGE

    Dr. Wong. Chairwoman Davis, members of the subcommittee, 
thank you for this opportunity.
    There have not been very many studies done on the influence 
of multiple deployments on children; and of the studies that 
were conducted, many of them focused on whether deployments 
indeed stress children.
    In March of 2009, Steve Gerras and I conducted a study to 
explore what factors might influence the magnitude of that 
stress. We collected the responses of over 2,000 active duty 
soldiers who completed a web-based anonymous survey. In 
addition to that, we provided them a link to forward to their 
spouses, which resulted in over 700 spouse surveys, identical 
surveys. We also provided them four links to send to up to four 
of their children between the ages of 11 and 17, which resulted 
in adolescent surveys, identical surveys. We also conducted a 
second phase of this study where we traveled throughout the 
United States Army installations and interviewed over 100 
adolescents at assorted Army posts.
    What did we find? What we were expecting, first of all, is 
a cumulative effect of deployments. We thought that with each 
subsequent deployment there would be higher levels of stress in 
the children. When we looked at the soldier surveys with their 
estimate of the stress that their children are experiencing, 
there was a cumulative effect. But when we looked at the 
children's perspective, there was no cumulative effect. 
Amazingly, there was a trend of decreasing stress with each 
subsequent deployment. So instead of a cumulative effect, we 
saw perhaps levels of coping strategies being learned and 
maturing happening in the children.
    Back to the predictors of deployment stress. What did we 
find? We found the number one predictor for deployment stress 
was their participation in an activity such as sports. That was 
followed by a strong family and then the child's belief that 
the American public supported the war.
    Sports as a diversion for deployment stress, that makes 
sense; and youth sport programs are relatively easy to create. 
A strong family that is expected, but that is a long-term 
social problem as well as an Army problem.
    But the strength of a child's perception of the American 
support for the war would be associated with their deployment 
stress was a surprise, and that is a much more complex issue to 
deal with.
    We also shifted then to another question, not looking at 
the everyday stresses of a deployment but looking at a child's 
ability to cope with a life of deployments. For this, we looked 
at what predictors help a child survive the life of an Army 
brat in a deployed Army.
    What we found was that the predictors were a strong family, 
a strong non-deployed spouse, the perception that the American 
public supports the war, but the largest predictor of a child's 
ability to cope with the life of deployments was their belief 
that soldiers are making a difference in the world. That is 
surprising and yet intuitive.
    What happens is these adolescents grow up in an environment 
with lofty notions such as sacrifice, selfless service, and 
duty. They are surrounded by sayings such as I know my soldiers 
and I will always put their needs ahead of my own from the NCO 
Creed.
    These children understand that the Army is a greedy 
institution, demanding all the time, energy, and focus of a 
soldier. But they also understand from firsthand experience 
that the family is a greedy institution that requires constant 
attention and care. So they see their deployed soldier caught 
in the middle of both noble institutions.
    So our study examined deployment stress, how do you deal 
with the stress of an individual deployment, and found that 
sports, a strong family, but also the belief that the American 
public supports the war influenced that stress. But when we 
looked at the ability to cope with the deployment, we found 
that, in addition to strong family, strong non-deployed spouse, 
the perception of American support for the war but the belief 
that American soldiers are making a difference in the world is 
the number one predictor. What we found was that we found 
varied common factors, but we also found that attitudinal 
factors make a difference in a life marked with multiple 
deployments, that a child's confidence in their parent's call 
to duty is worth the sacrifice.
    I look forward to your questions.
    [The prepared statement of Dr. Wong can be found in the 
Appendix on page 39.]
    Mrs. Davis. Thank you very much, both of you, for your 
comments and the work that you have done on this.
    Maybe I will just start with you for a second, Dr. Wong, 
because I found that interesting in terms of the adolescents. 
And one of the things that I wondered about is, if you were 
able to separate those young people who were living in a more 
confined military base versus those who were living in the 
public domain essentially, attending public school versus a 
military on-base school, what difference did you see?
    Dr. Wong. That is a good question, and we did ask both of 
those. We asked, did you live on base versus off post; and we 
also asked, did you go to a DOD school or a public school. What 
we discovered is there is really only--in this age group, 11 to 
17, there are only two DOD high schools anyway. So that 
question went away.
    As far as the on-post/off-post, we did not find a 
difference. Why is that? It could be because someplace like 
Fort Carson where off-post there is a huge variance in what an 
off-post experience is. There are some that are far away and 
they are very civilianized, but there are some very close and 
they are very military. What we think we heard from the 
anecdotal evidence we picked up in the interviews was how much 
the family participated in the post activities as opposed to 
where they lived was a bigger factor.
    Mrs. Davis. So if they participated heavily in post 
activities, there was a higher level?
    Dr. Wong. Exactly. And yet they lived off post. They took 
the time to take advantages of activities. Interestingly, 
during a deployment, you reduce the persons available to drive 
to activities by 50 percent.
    Mrs. Davis. Dr. Chandra--and, I think, Dr. Wong, you can 
weigh in on this as well. While there were certainly 
differences in your studies, one of the things that was similar 
is that the non-deployed parent, the extent or the well-being 
of that parent particularly or provider as it relates to their 
own mental health, is there anything in particular you found 
that actually was quite supportive of that non-deployed parent 
that jumped out a little bit that was more unusual, whether or 
not they actually accessed services and family support centers, 
et cetera? Did you learn anything about what kinds of programs 
perhaps that that non-deployed parent took advantage of?
    Dr. Chandra. For this study, we actually didn't look 
specifically at the services that non-deployed caregivers 
access. We are looking at that issue in follow-up analyses. But 
certainly we had a very strong relationship between the 
caregivers' mental health and their ability to cope as well as 
their ability for their children to handle some of the 
deployment stressors.
    Dr. Wong. For our study we did ask the spouse how they 
handled deployments, and that was a very significant factor. 
From the interviews, what we discovered was that a key factor 
in the spouse's dealing with deployments is the Family 
Readiness Group, and that is a strong factor. And you can 
almost tell in the children how active the parents were, and 
the children saw that as the non-deployed spouse's role almost 
during deployment.
    Mrs. Davis. Were there any particular gaps that you picked 
up in speaking with them, something that would have been 
helpful?
    One of the things that actually I have picked up over a 
number of contacts with military families is the lack of 
tutoring assistance, that the non-deployed parent has sort of 
lost that extension in helping out with school. And they said, 
if we only had more ability to access tutors or get some help. 
Because, as one of parents would say, I cannot--I have got 
three kids. I cannot help them all at one time.
    Dr. Wong. We didn't pick up anything like that. What we 
heard was a lot of spouses just want someone to listen to and 
chat with and talk about things, to feel like they are not 
alone. So as far as specific tutoring programs, we didn't pick 
up that.
    Dr. Chandra. For this part of the study, we focused 
specifically on the types of challenges that children are 
facing during and after deployment. And so what we found was 
there were things that they highly endorsed as difficult, both 
from the caregiver perspective as well as children; and these 
were things like missing school activities, finding that people 
in the community really didn't understand what life was like 
for them. So they definitely articulated some of those things 
you are referencing as more common challenges, particularly 
during the deployment.
    Mrs. Davis. What do you think should be done to assist 
military families? What would you like to see?
    Dr. Chandra. Well, I think our studies--both of our studies 
really point to the needs of older youth; and, as we reference 
in our work, there certainly has been a lot more attention on 
younger children, younger than 12, for which we know there are 
a lot of child development and support programs on base and 
off. So what we hope from this work is that it starts to 
identify some of the needs of older youth and teenagers so that 
we can look at the programs that we currently have and try and 
figure out are we aligning our programs with those needs, 
particularly of adolescents and particularly those older 
adolescents.
    Dr. Wong. What our study showed was also a similar focus, 
but what I liked about our study was the surprising findings 
there are some obvious, easy things like sports activities. The 
kids need to be busy, keep them distracted.
    Strong families, that is a hard one; and yet it is very 
intuitive to all of us that you need a strong family. And that 
starts long before deployment, and it starts maybe even before 
the soldier comes into the Army.
    But how do you influence--because we found that the factors 
of the child's belief, what they feel about the Army, what they 
feel about the nation makes a difference, and they will see 
through propaganda. So how do you influence a child's beliefs? 
That is a critical question, and that will have us thinking for 
a long time.
    Mrs. Davis. One of the surveys that has been done--I am 
going to turn to Mr. Wilson in just a second. One of the 
surveys that was done--we met with a number of spouses probably 
about a year ago--was their belief that the--I think 94 percent 
believe that the American public really had no idea what they 
go through, what their sacrifices are all about. And we know in 
many ways--we have been pretty much a military at war, not 
necessarily a nation at war. Did those kinds of sentiments--did 
those come across from the students as well? Or you are saying 
the fact that they feel that there is a great deal of support 
really has helped them tremendously?
    Dr. Wong. We saw a variance on that, that where some people 
thought yes and some people thought no. What we found was that 
it does influence the stress that the children experience.
    Mrs. Davis. Thank you very much.
    Mr. Wilson.
    Mr. Wilson. Thank you.
    An extraordinary difference would be for young people who 
live on military bases, their mom or dad are active duty, and 
then I know from my personal experience serving in the Army 
Reserves and National Guard, here we have people back in their 
home communities. In your studies, did you see a difference 
between active duty children and reserve and guard children?
    Dr. Wong. Our study was restricted to active duty. And so 
if a follow-on study would be conducted, we could hypothesize 
that it would be worse for a reserve component because they 
don't have that tight-knit community, or we could hypothesize 
that it would be better because they are taking extraordinary 
measures and the community might be behind it and there could 
be sustained community and family support available. So it 
could go either way.
    Dr. Chandra. Our study actually did include representation, 
active, guard, and reserve; and we did not find any significant 
differences in terms of child well-being with respect to 
component. There were other factors like the total months of 
deployment that seemed to be more of a distinguishing risk 
factor.
    We did note that for children living on base, caregivers 
were less likely to report difficulties during deployment than 
for those families living off base.
    Mr. Wilson. And I do hope, as you continue your studies, 
because it really would be interesting to see the difference 
between the active duty, whose moms and dads are in uniform 
every day, and then we have the guard members, whose moms and 
dads are in uniform monthly, and then deployment.
    And I know that is really reflective of my family. I have 
one son who is active duty Navy, served in Iraq, and he has 
small children. And then I have got three other sons, one 
served in Iraq, another in Egypt, and they are Army National 
Guard. So I wouldn't want you to study my family. I don't want 
to offer that up. But I know there are differences and 
different challenges.
    But I do know this, that in our family our sons, their 
spouses, the children are all very, very proud of the service 
that has been rendered to our country. And particularly with 
the elections yesterday--my oldest son had been in Iraq for the 
2005 election, so it was great to see his keen interest in the 
62 percent participation. And then I have a nephew who is in 
Baghdad, and he was keeping me up on the percentage of 
participation during the course of the evening. So our family 
is engaged.
    In regard to Family Readiness Group, because to me that is 
so important, and I was provided pre-mobilization legal 
counseling in my service and something that I, in retrospect, 
wish we had focused on more in working with families. Guard 
members, reservists received annual legal briefings to prepare 
them in the event of deployment, but it was rare that we had 
family members participate. Now it is a significant part to 
have a Family Readiness Group, and the families do want to be 
participants.
    How would you judge the Family Readiness Groups and which 
ones did you see were most effective?
    Dr. Wong. That would be a hard question for us, because we 
saw plenty of spouses and children who were very appreciative 
of the Family Readiness Groups, and we really didn't hear 
people talking about ones that were wanting. And so it could be 
that people didn't want to express that, but I didn't hear that 
many people complaining.
    Dr. Chandra. We didn't look specifically at Family 
Readiness Groups, but I would submit, certainly thinking about 
how those families who don't live on base or who are not 
geographically collocated to access those Family Readiness 
Groups, what are the other ways they can engage in those kind 
of connections, particularly for guard and reserve families.
    Mr. Wilson. I hope you will look into that. Because there 
are armory Family Readiness Groups, but a challenge is that 
many of the members of that particular armory are people who 
commute--it is not uncommon--100 miles, 200 miles, not just 
within that community. And so I hope we will look at that.
    And I know from my experience you will have a spouse, male 
or female, who is just enthusiastic organizing the immediate 
community and then trying to make efforts for those persons who 
live further away; and they are just so selfless and the 
communities are so supportive. And we also have in our state 
what is called the State Guard, which backs up.
    So, again, thank you; and I look forward to the balance of 
the testimony.
    Mrs. Davis. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Madam Chair; and thank you both for 
the studies and for being here and your testimony and answering 
our questions.
    I guess I jump sort of intuitively to the same thing that 
Mrs. Davis and Mr. Wilson did, and that there would be a big, 
noticeable difference between whether you lived on the base--
on-post or off-post in the case of the Army. And, apparently, 
Dr. Wong, you didn't see that so much.
    I guess with the active forces--and, Dr. Wong, that is what 
your study was--we are now way past the point where we have 
individual assignments, for the most part. We send units over. 
So you have Family Readiness Groups, and you have some unit 
cohesion that would apply whether you lived on or off the base, 
as you are suggesting.
    My son is still with the 101st, and for years he lived in 
Clarksville, Tennessee, off the post, and now he lives on Fort 
Campbell. And, in all cases, the kids were surrounded by other 
kids whose moms and dads were with the 101st. So I can see why 
that might get blurred pretty easily.
    I think you are really suggesting, though, that the post 
activities might be helpful, but if you have to commute to 
them, that might be a detriment for those who live 
significantly off-post. But I am not sure why you said sports 
are a good distraction. I am not sure if I understand in the 
results of either of your studies that these post activities 
make a big difference; is that correct?
    Dr. Wong. Our study looked at activities, specifically 
sports. We looked at clubs such as band or drama. We looked at 
organizations such as Boy Scouts and Girl Scouts. And we looked 
at religious activities. What we found is that the significant 
factor for predicting which children would be better with the 
deployment and stress are those that are participating in 
activities such as sports.
    Mr. Kline. But does it have to be a post activity?
    Dr. Wong. No, not at all. What it is, it serves as a 
distraction to the negative feelings that are associated with a 
deployment.
    Mr. Kline. So if they live off the post and they are in 
little league or something like that off-post, that is the same 
thing as if it were--okay. I think it would be helpful to, at 
some point, for somebody, when you are looking at this, to look 
at the impact of the individual deployments which still occur 
in the reserve component. We still have them called up and sent 
off, and they are not surrounded by any unit cohesion, and that 
might be interesting to see.
    I know I always worry about my grandkids. They are still 
preteen. This is the third--my son will leave here in about 10 
days for his third combat deployment, and I found it 
interesting because I have been worried about that cumulative 
effect, too. I don't know if that--you said there may be a sort 
of maturing that goes along. I don't know if that just applied 
to older kids, or does that apply to your three, four, five, 
six, seven, eight, nine-year-old?
    Dr. Wong. We restricted our study to 11- to 17-year-olds.
    Mr. Kline. So you had nobody below 11?
    Dr. Wong. We didn't have anyone, so we really can't 
compare.
    Mr. Kline. Okay.
    Dr. Chandra. And, to add to that, we looked at both the 
number of deployments and the total months of deployments, 
regardless of the number. And actually the factor that mattered 
the most, that had the greatest effect was the total months of 
deployment, not the discrete number of deployments. So we were 
able to differentiate those.
    Mr. Kline. That is where I was getting to next, whether you 
had concluded that it was better to have more, shorter 
deployments, those would be preferable to fewer, longer 
deployments, or whether it was a cumulative deployed time. In 
other words, if you had five 7-month deployments, is that worse 
than two 15-month deployments? We don't do 15-month deployments 
now, but if we did, do you have a----
    Dr. Chandra. We did not look at the sequencing, but 
certainly it is--that cumulative months of deployment with 
whatever configuration, as you suggested, that example had a 
greater impact negatively on children's well-being.
    Mr. Wilson. Okay. Thank you very much. Thanks for doing the 
study, and we are looking forward to more.
    I yield back.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Do either of you have any idea what the total 
number of children like at this moment in time today have 
parents that are deployed overseas, what kind of numbers we are 
talking about?
    Dr. Chandra. The recent statistics that I have seen is 
about 1.8 to 2 million children.
    Dr. Snyder. So almost 2 million children that have 
parents--I probably should have phrased that differently than 
when I said overseas--deployed overseas, separated from their 
parents?
    Dr. Chandra. That is my understanding from recent data. I 
don't know----
    Dr. Snyder. Do you agree with that number, Dr. Wong?
    Dr. Wong. I don't know the number, but that number is in 
the ballpark from what I have read in the studies.
    Dr. Snyder. Dr. Wong, why was your study restricted to only 
active duty? That seems like if we did that by mandate in our 
legislation we made a terrible mistake, I would think. Why was 
that?
    Dr. Wong. Sir, that was done because we were sending out a 
survey that we wanted 11-year-olds to fill out. And so if we 
wanted to make it applicable to the reserve component, we would 
have had to have made it a lot bigger because the issues were 
different. So we said we wanted to see does the post's youth 
center make a difference. That question would not have made 
sense to a reserve component child. So to keep the survey short 
enough that an 11-year-old would fill it out, we said restrict 
it to the active component.
    Dr. Snyder. It may point to the need to do a further study 
of the component. Because we--I think most bases probably do 
have sports teams. I would suspect there are a fair number of 
kids in the reserve component world that we don't have control 
over that. We can't send around a memo, hey, Dr. Wong's study 
recommends all your bases need to have a summer baseball league 
or something. We don't have control over what is going on in 
other parts of the world.
    I wanted to ask about special needs kids. Did either of 
your studies look at those parents who have special needs kids 
and how this might impact on them? Because that is a problem in 
the military even when everybody is at home.
    Dr. Chandra. Unfortunately, we didn't include questions 
about this in this study, but we are hoping to include this in 
follow-up work. Because I think the Exceptional Family Member 
Program and other services that are available to special needs 
families are an important consideration.
    Dr. Wong. Our study did not address special needs 
specifically, but during the interview portion of our study we 
did have special needs children arriving for interviews, and we 
took their comments into consideration.
    Dr. Snyder. I think Mrs. Davis has heard me talk about this 
before, but, 3 years ago or so, at the Little Rock Air Force 
Base, I had them arrange a meeting with family members of kids 
with autism; and they had to work at it a little bit because of 
medical privacy. So they extended that. But we finally ended up 
with a group--I can't remember what--maybe six to eight 
families were represented there.
    And the most striking thing about it was that they didn't 
know each other, that it was like a godsend for them that they 
finally had other parents on the base. Little Rock Air Force 
Base is a relatively small base. But it was their first 
opportunity--we have gotten so protective of people's privacy 
there wasn't an ability to get people to get together. So I had 
to actually recommend it.
    And I am told that this has been done by some bases now 
around the country, that once every so often that the base 
commander needs to have kind of like Special Needs Parents Day 
and get everybody in there for coffee at 8:00 in the morning 
and then at 8:30 say that is autism corner, that is asthma 
corner, that is diabetes corner, however you want to do it. But 
just to get people--let parents instruct parents as they are 
coming and going. Because I think this must be a tremendous--
deployment must be a tremendous potential burden on those 
families who really have difficulties anyway with a child with 
some either emotional or physical health issues.
    We had a situation--we talk about valuing things. I am 
putting this in context now. We had this situation at Little 
Rock Air Force Base where there is a public school on the base 
that is the responsibility of the local school district. It 
leaks. It is terribly inadequate. It is great education there. 
But everybody is so frustrated because they say they are going 
to do something, and then it doesn't get done. And the base 
commander has gotten involved the last two--has gotten involved 
politically about why we can't do something about this school. 
But it makes sense. If you don't value the school, what message 
is that sending to the kids?
    One guy talked to me about how he would get e-mails from 
his kid that the roof had leaked again on the school papers 
while he was in Iraq, you know, on his desk the next morning 
and the school desk is all wet. And maybe that puts it in 
context, why that is so important to those families, that they 
sense that we don't take care of their physical needs, that it 
may be sending the wrong signal about how important we think 
their service is.
    That is probably a stretch, but I will ponder that some 
more.
    My time is up. Thank you, Madam Chair.
    Mrs. Davis. Thank you.
    As I recall, in both of your studies--and this certainly 
represents the military that they are serving in the wars today 
as well--both of those families who were questioned, the father 
was deployed. Do you have any sense or do you think we should 
be looking also at more families where the mother is the 
deployed parent?
    Dr. Wong. In our study, 10 percent of the sample were 
women; and what we found was there was no significant 
difference between the children of women soldiers and men 
soldiers in how they dealt with deployment stress.
    When we looked at their ability to cope with deployments 
overall, in other words, a life of deployments, there was a 
significant difference that women--the children of women 
soldiers had a harder time coping with a life of deployments. 
That could be for many reasons, one of which is that the 
percentage of single parents is higher for women soldiers.
    Mrs. Davis. And in terms of adolescents, you looked more at 
adolescents than at young children?
    Dr. Wong. Exactly. We stopped at 11 as the youngest and 17 
as the oldest.
    Mrs. Davis. Dr. Chandra.
    Dr. Chandra. Absolutely. I think it is critical for us to 
look not only at female service members but dual-military 
families and to understand the impacts and the effects 
associated for the family as well as for children specifically. 
We had a small number of fathers in our sample, so we weren't 
able to tease apart differences between whether the father was 
deployed or the mother.
    Mrs. Davis. One of the things that I think we have to be 
careful about is, even though you saw great resiliency in a 
number of people, especially the young people, I had to smile 
because I was thinking for adolescents maybe I think you 
suggest that life might be easier without dad around and that 
in some ways they have learned to cope and they have a certain 
amount of independence and have taken on roles in the family 
that otherwise they might not have done. So it may be that, 
especially during the transition periods that occur that are 
tough when people are coming back from a deployment, that life 
is just perhaps a little simpler for kids.
    But I also think that even though we are seeing that there 
are a number of young people as well that have great resiliency 
and are doing well, we also know there are some young people 
that are not doing well at all. And so as you look at those 
children particularly, did you have any sense of the severity 
of the mental health problems that they have and how does that 
compare to the general population?
    Dr. Chandra. We purposely didn't use clinical or diagnostic 
assessments, but we did note that about a third of our sample 
had elevated anxiety symptoms, and these are anxiety symptoms 
that would warrant a subsequent clinical assessment for an 
anxiety disorder. So that was about twice what we would expect 
in other studies of young people.
    We also found that about a third of our sample had 
heightened emotional difficulties. So these are things like 
getting along with friends and feeling sad and tearful and so 
on. And that compares to about 20 percent, about a fifth, in 
the general population. So it gives you a sense a little bit of 
the elevated symptoms. Certainly further studies should really 
use diagnostic or screening tools to know if it is a disorder 
level.
    Mrs. Davis. I guess also the number of times that the young 
person frequents a mental health provider during the course of 
the year, whether, in fact, the parent is seeking that kind of 
assistance as well. I think what we would be after in this is 
some of the changes that have occurred within the military 
around issues of stigma and whether the families are benefiting 
from what I hope and see is a changing attitude in that regard 
and whether there is a belief that there is help out there if 
we need it and if we feel that it is available to us. Is there 
anything in some of the surveys or the discussion that you 
picked up that could speak to that?
    Dr. Wong. Our study did not address clinical diagnosis 
either. What we did was ask overall how your child--when we 
asked the soldiers and the spouses--handling deployments 
overall. Interestingly, soldiers said about a third of their 
children were doing poorly or very poorly. When you turned to 
the children, only 17 percent said they were doing poorly or 
very poorly. But that 17 percent could be extrapolated out to 
20,000 children in the active force that say they are not doing 
okay, they are doing poorly or very poorly. I think that 
reflects your point of let us not say that everything is fine 
out there. There are 20,000 children out there saying they are 
doing poorly or very poorly, and it is not acceptable.
    Dr. Chandra. We did include questions about mental health 
service use at subsequent surveys. So we are actually in the 
process of analyzing that. So, hopefully, we will be able to 
have those findings for you soon.
    Mrs. Davis. Thank you.
    Mr. Kline, did you have any other questions?
    Mr. Kline. Just one quick question. Dr. Wong, on the poorly 
or very poorly question, did it--I guess I am not sure when you 
were doing the asking. Was this all post deployment or during 
deployment?
    Dr. Wong. Thirty-six percent of the soldiers who responded 
to our survey were deployed at the time. So we had responses 
coming from Iraq, Afghanistan. We had 700 of their spouses, 
about a third of them had their spouse deployed; and we had 550 
adolescents, about a third of their parents were deployed. So 
what we were able to do is compare the non-deployed with the 
deployed for questions addressing deployment stress.
    Mr. Kline. What I was getting at was you may be doing 
poorly or very poorly--11 months into deployment may be 
different than one month into deployment. And I was trying to 
understand if your study got at that.
    Dr. Wong. Right. For the ability to cope with a life of 
deployments as opposed to a single deployment, that was done 
with everybody; because we are asking them to reflect upon life 
as an Army brat.
    Mr. Kline. I see. Okay. Thank you.
    Mrs. Davis. Dr. Snyder, any more questions?
    Dr. Snyder. Probably the longer we go on, the more our 
questions will get far more detailed than your study could 
possibly undertake. Back in the olden days when Mr. Kline and I 
were in the Marine Corps and I was in Vietnam, it was--the 
rarity was--I can remember I think I talked to my mother on the 
phone maybe twice in a year or something like that.
    I have I guess a total of three employees that have been 
mobilized overseas. One of them is currently overseas on a 
second deployment. He is getting towards the end of his second 
year-long deployment and has three little girls. But he is very 
pleased with the use of Skype or some brand of that.
    I assume that you haven't looked at any of those kinds of 
things, the importance of those kinds of contacts or what those 
impacts might be with much, much better communications than we 
have ever had in war situations.
    Dr. Wong. Actually, one of our hypotheses was that the more 
frequent communication with the deployed soldier and the more 
in-depth communication with a soldier, two variables, we 
figured the lower the stress would be. What we found was the 
more frequent the communication, the higher the stress.
    Now, we have to be careful about causality here because it 
could be--a knee-jerk reaction might be the more they talk, the 
more they get stressed. Or it could be the more stressed the 
child is, the more they want to talk with the deployed soldier. 
Or it could be the more they talk to the deployed soldier, the 
more they are hearing about what is going on; and that might 
produce more stress.
    Dr. Snyder. You are no help at all, are you?
    Dr. Wong. But we did find that for a family that reported 
that all the indicators were that it is an intact, strong 
family, the communication was not detrimental. Increased 
communication was not a detrimental factor. For families that 
reported that their family was a weak family, the more 
communication, the more stressful. So there we start to see a 
glimpse of the complex nature. We can't just say more 
communication is better.
    We also did a previous study where we looked at the effect 
of communication on the forward operating base back home on the 
soldier, and a lot of times more communication from the soldier 
back home produces more stress in the soldier. Because, in the 
old days, you focused on the mission and only the mission. 
Today, we are worried about the washing machine repairman 
coming and what should the spouse do and buying a house and 
everything else that we have now put on the brains of the 
soldiers deployed.
    Dr. Snyder. I see. When you start looking at kind of how we 
judge this stuff, I don't know how you ultimately decide the 
impacts of these things.
    I am not running for re-election. This is my seventh term. 
Because life treats you differently. Mr. Kline and Mr. Wilson, 
they talk about their sons in uniform. I have sons in diapers. 
I have a set of triplet boys that are one-year-old. They turn 
15 months today. And then a three-year-old. And I know that 
anytime I put on a necktie--I had about a year, year and a half 
where my three-year-old would cry because he thought that meant 
I was going to Washington. So that is stressful. On the other 
hand, he went through phases of several months--he would cry 
when I went to the grocery store. I don't know how you balance 
that out. He is a little kid.
    But I don't know how you look at this down the line. After 
talking about my employee's second deployment of a time away 
from family is over a year both times, two and a half years 
total out of--a very, very important part of both their lives 
as parents but also their lives as children. I don't know you 
do studies down the line. You won't be able to. You just--
people go through it the best they can, and we try to be as 
supportive as we can. But you did not look at children younger 
than 11; is that correct?
    Dr. Wong. That is correct.
    Dr. Chandra. One thing that will be critical is that our 
study is longitudinal. So we followed families over three time 
points, and certainly hopefully we can follow families longer, 
because it will be important to see how these effects change 
over time and certainly to tease apart kind of natural 
developmental changes that happen with kids and adolescents and 
what really is kind of the effects associated with deployment 
stressors.
    Dr. Snyder. Right. And it is my belief that everybody is 
entitled to one off-the-wall question a day or so. So, Dr. 
Wong, I am going to ask it to you; and for obvious reasons I 
won't ask Dr. Chandra.
    Last week, some allegations were made that RAND cannot be 
trusted, that they have bias in their studies. Have you had any 
reason to think that RAND is not a reputable research 
institute?
    Dr. Wong. I am honored to be sitting here with Dr. Chandra.
    Dr. Snyder. Thank you.
    Thank you, Madam Chair.
    Mrs. Davis. Thank you so much. We certainly appreciate all 
of your comments.
    I think we have asked this in several different ways, but 
with the work that you have done and particularly as it relates 
to a longitudinal study, what else would you like to know? What 
is it that is important as we continue?
    Dr. Wong. For our study, what is important that we can see 
that children are saying that they are not doing as bad as 
their parents said. But what happens when they are 25 years 
old? How are they going to be as parents? We don't know that. 
That is something that needs to be taken a look at. We looked 
at 2009. The wars are 8 years old. What happens when they are 
10 years old, 12 years old? We don't know that. So even though 
we are looking at it from a certain point in time, we don't 
know the future.
    Dr. Chandra. I think there are a few things that hopefully 
we can understand better. One is to really understand the non-
deployed spouse or caregiver's mental health. I don't think a 
lot of attention has been paid to the parent at home. I think 
it is critical that we look at the needs of girls and older 
teens. And we haven't spent a lot of time looking at what 
supports we have in place.
    And then, overall, we have a lot of programs being rolled 
out; and there have been tremendous efforts on behalf of DOD as 
well as the civilian sector. But we really don't know which 
programs are effective. And given that we have research now 
that is really identifying what those need areas are and which 
subgroups of kids could benefit, now we really need to think 
about whether our programs are matching those needs.
    Mrs. Davis. I am glad you brought up girls particularly, 
because in your study there was a difference in the response of 
young women. Now, were those responses of the non-deployed 
parent regarding the girls or were these actual responses of 
the girls themselves?
    Dr. Chandra. Actually both. But our finding about the 
reintegration-related challenges was really based on youth 
report. And so girls and boys both sort of shared that it was 
difficult getting to know that returning parent again. But 
girls expressed more worry about how their parents were getting 
along at home. They expressed more worry if that deployed 
parent who returned had a mood change or was different in some 
way. They just had greater anxiety about some of those issues. 
So we need to think about how we support girls during that 
process.
    Mrs. Davis. And in teasing out what is unique about girls 
and boys, when it comes to perceptions around social 
relationships as well. Because I think we would probably agree, 
those of us in the audience, that there is a difference, sort 
of a complexity of those relationships seems to be picked up 
more by young women often than is by young men. And I would--
that would be curious to see whether there are some programs 
particularly that should be targeted and supported as they go 
forward with their adolescent development which would be really 
critical with their dad being gone.
    Dr. Chandra. Absolutely. I think earlier studies that have 
focused on younger kids have really seen difficulties for boys, 
and certainly those difficulties are there for the adolescent 
boys, but I think this study highlights some of the needs of 
girls specifically.
    Mrs. Davis. Great. Thank you so much.
    We certainly appreciate the work that you have done, and we 
hope it will continue. We remain concerned about identifying 
and trying to help to the extent that that is possible.
    One of the things that I have been a little concerned about 
is in some areas I guess it is difficult for us to even 
identify where the military families are located. In 
California, that is not really the case. But I understand that 
in some states it is, and I know that there are organizations 
looking at military children and families that are concerned 
about that as well. So we would want to know in isolated areas 
and particularly as parents come home where they don't have a 
support structure, whether or not we really need to be--have a 
lot more services available to those families. We need to find 
out ways of thanking the families and thanking the young 
people. We thank our families repeatedly. We thank--we sort of 
direct our comments often to our spouses, to their spouses, but 
the kids really also need to be recognized and thanked for the 
sacrifices that they make. It is very important.
    Thank you for your work. Thank you.
    [Whereupon, at 6:21 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 9, 2010

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 9, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7400.001
    
    [GRAPHIC] [TIFF OMITTED] T7400.002
    
    [GRAPHIC] [TIFF OMITTED] T7400.003
    
    [GRAPHIC] [TIFF OMITTED] T7400.004
    
    [GRAPHIC] [TIFF OMITTED] T7400.005
    
    [GRAPHIC] [TIFF OMITTED] T7400.006
    
    [GRAPHIC] [TIFF OMITTED] T7400.007
    
    [GRAPHIC] [TIFF OMITTED] T7400.008
    
    [GRAPHIC] [TIFF OMITTED] T7400.009
    
    [GRAPHIC] [TIFF OMITTED] T7400.010
    
    [GRAPHIC] [TIFF OMITTED] T7400.011
    
    [GRAPHIC] [TIFF OMITTED] T7400.012
    
    [GRAPHIC] [TIFF OMITTED] T7400.013
    
    [GRAPHIC] [TIFF OMITTED] T7400.014
    
    [GRAPHIC] [TIFF OMITTED] T7400.015
    
    [GRAPHIC] [TIFF OMITTED] T7400.016
    
    [GRAPHIC] [TIFF OMITTED] T7400.017
    
    [GRAPHIC] [TIFF OMITTED] T7400.018
    
    [GRAPHIC] [TIFF OMITTED] T7400.019
    
    [GRAPHIC] [TIFF OMITTED] T7400.020
    
    [GRAPHIC] [TIFF OMITTED] T7400.021
    
    [GRAPHIC] [TIFF OMITTED] T7400.022
    
    [GRAPHIC] [TIFF OMITTED] T7400.023
    
    [GRAPHIC] [TIFF OMITTED] T7400.024
    
                                  <all>

</pre></body></html>
